December 4, 2008

KATHY AINSWORTH
VICE PRESIDENT, RETAIL OPERATIONS

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

SUBJECT: Audit Report – Fiscal Year 2008 Financial Installation Audits –
         Self-Service Postal Centers (Report Number FF-AR-09-034)

This report presents the results of our financial installation audits of Self-Service Postal
Centers (SSPC) for fiscal year (FY) 2008 (Project Number 08BD005FF000). We
conducted this work in support of the audit of the U.S. Postal Service’s financial
statements. See Appendix A for additional information about this audit.

Conclusion

Based on the items we reviewed, financial transactions were reasonably and fairly
presented in the accounting records and, generally, the internal controls we examined
were in place and effective at all 13 units audited. However, we identified various
internal control and compliance issues at these units relating to cash and stamp
accountability and financial accounting and reporting. In this report, we discuss those
conditions that occurred at four or more units. We also identified one procedural issue
related to vending closure. Personnel stated the overall causes for the internal control
weaknesses were inadequate supervisory oversight of unit operations and unit
employees’ unawareness of or noncompliance with Postal Service policies and
procedures. When employees do not follow accountability procedures, the Postal
Service has an increased risk of financial loss. Appendix B presents a list of the
13 sites and the audit reports issued. Appendix C and Appendix D present summaries
of the accountability examinations conducted at each site and the issues reported at
each unit, respectively.

We made recommendations to district management addressing the findings at each
installation. District management’s comments were responsive to our findings,
recommendations, and $2,245 in monetary and $59,290 in non-monetary impacts.1
The actions taken or planned should correct the issues identified at these installations.
Xxxxxxxxxxxx, xx xxxx xxx xxxxxxxxx xx xxx XXXx Xxxxxx Xxxxxxx Xxxxxx xx
Xxxxxxxxx Xxxxxxx XXXXX Xxxxxx xx Xxxxxxxxxxxx xxxxxxxxx xxxxxxx xxxxxxxxxxx.

1
    We claimed monetary and non-monetary impacts in each individual site report.
Fiscal Year 2008 Financial Installation Audits –                                         FF-AR-09-034
 Self-Service Postal Centers

Our audit disclosed internal control deficiencies which may have contributed to vending
shortages of $5,421 and overages of $10,000. Specifically, management and/or staff
did not:

    •   Conduct accountability examinations at the proper frequency (four units).

    •   Properly maintain Postal Service (PS) Forms 3977, Duplicate Key, Combination
        and Password Envelopes (four units).

    •   Properly maintain PS Forms 25, Trust Fund Account, for each machine (four
        units).

    •   Research and resolve expense items resulting from financial differences (six
        units).

Except for the last issue above, we identified these issues in our FY 2005 and/or
FY 2004 reports,2 indicating continued unit-level noncompliance with prescribed internal
control procedures. Appendix D provides a complete list of issues reported in all 3 fiscal
years.

Vending Closure

The Postal Service plans to phase out vending machines by 2010. However, Postal
Service data shows 61 of the 80 districts still have a vending function. Unit
management is required to perform certain financial procedures — such as conducting
accountability examinations and transmitting sales — until they cease vending
operations. Upon vending closure, a unit is to remove all cash, coins, and products
from the vending machines; perform a final accountability examination; and close the
accountability.

We are concerned that during the closure of the vending function, Postal Service assets
could be at risk. During two of the 13 SSPC audits, units did not perform final vending
cash and stamp stock accountability examinations prior to removing the vending
machines from service. In addition, during recent financial audits of post offices,3 we
identified two instances in which management had not properly closed the
accountability during closure. In one of those two cases, we identified a $2,258
shortage for a vending machine the Postal Service closed in June 2008 but for which
the unit had not transferred the stamp stock to the Stamp Distribution Office.

Because of our concerns about vending closure, the OIG is developing a risk model4 to
assess risks associated with SSPCs. While we have not finalized the model, we have
noted units with stamp stock balances but no financial activity. During FY 2008, eight
units had a current Stock Ledger Balance5 but no transmission of PS Form 1412, Daily
2
  The FY 2005 and 2004 reports are the two previous reports we issued for SSPCs. After FY 2005, we began
auditing SSPCs every 3rd year, rotating them with Contract Postal Units and Stamp Distribution Offices.
3
  Bay Valley District Financial Accountability Audit (Project Number 08BG005FF000) and Sierra Coastal District Risk
Based Financial Audit (Project Number 08BD017FF000).
4
  Continuous Auditing - SSPC (Project Number 09BO03FF000).
5
  The eight units had a stock ledger balance of $215,483 as of September 30, 2008.
                                                             2
Fiscal Year 2008 Financial Installation Audits –                    FF-AR-09-034
 Self-Service Postal Centers

Financial Report, for the entire fiscal year. For the month of September 2008, 55 units
had stock ledger balances totaling $1.4 million but show no transmission of PS
Form 1412 data.

We recommend the Vice President, Retail Operations, in conjunction with the Vice
President, Controller:

1. Develop and implement an action plan with milestones to:

      •   Reduce or eliminate the reported deficiencies.
      •   Reinforce vending closure policy.

Management’s Comments

Management agreed with our finding and recommendation. By Quarter 2, FY 2009,
management will develop an action plan to reduce or eliminate the recurring
deficiencies and by Quarter 3, FY 2009, will implement this plan. We have included
management’s comments in their entirety in Appendix E.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to our recommendation and
the corrective action should resolve the issues in the report.

The OIG considers the recommendation significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the follow-
up tracking system until the OIG provides written confirmation that it can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Linda Libician-Welch, Director,
Field Financial – West, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc:       H. Glen Walker
          J. Ron Poland
          Vincent H. DeVito, Jr.
          Katherine S. Banks

                                                   3
Fiscal Year 2008 Financial Installation Audits –                       FF-AR-09-034
 Self-Service Postal Centers

                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The OIG conducts financial field audits at post offices, contract postal units, self-service
and automated postal centers, business mail entry units, and stamp distribution offices.
We conduct these audits in support of the independent public accounting firm’s overall
audit opinion on the Postal Service’s financial statements.

SSPCs are postal units that use vending machines to provide postage stamps and other
retail products and services in post offices and commercial and off-site locations. The
Postal Service implemented SSPCs in 1964 to increase operating efficiency and
customer convenience. However, many factors have driven this traditional vending to
obsolescence. In FY 2007, traditional vending generated $393 million in revenue, while
FY 2008 revenue declined to $227 million.

The Postal Service has implemented a program to phase out stamp vending machines
from post offices and retail locations across the country by 2010. As of October 1,
2008, 61 districts have approximately 4,600 vending machines.

Handbook PO-102, Self-Service Vending Operational and Marketing Program, dated
May 1999 (updated with Postal Bulletin revisions through August 16, 2007), provides
vending procedures for unit operations. The Postal Service also standardized unit
procedures by issuing Handbook F-101, Field Accounting Procedures, dated July 2008.
In addition, the Vending Field Operations website6 provides information and procedures
to aid in the vending machine removal process.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our overall objectives were to determine whether financial transactions of field
operations were reasonably and fairly presented in the accounting records and whether
internal controls were in place and effective.

To accomplish these objectives, we conducted unannounced audits during FY 2008 at
13 judgmentally selected SSPCs based on revenue, shortages, and prior audit
coverage. These 13 units reported approximately $4 million in revenue in FY 2007.
Appendix B lists the locations we audited.

We conducted this audit from October 2007 through December 2008 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to limit audit risk to
a low level that is, in our professional judgment, appropriate for supporting the overall
audit opinion on the financial statements. Those standards also require us to consider
the results of previous engagements and follow up on known significant findings and
recommendations that directly relate to the objectives of the audit. An audit also
includes obtaining a sufficient understanding of internal control to plan the audit and to
determine the nature, timing, and extent of audit procedures to be performed. We
6
    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                                   4
  Fiscal Year 2008 Financial Installation Audits –                               FF-AR-09-034
   Self-Service Postal Centers

  supported the external auditors in obtaining reasonable assurance about whether the
  financial statements are free of material misstatement (whether caused by error or
  fraud). Absolute assurance is not attainable because of the nature of audit evidence
  and the characteristics of fraud. Therefore, an audit conducted in accordance with
  generally accepted government auditing standards may not detect a material
  misstatement. However, the external auditors and the OIG are responsible for ensuring
  that appropriate Postal Service officials are aware of any significant deficiencies that
  come to our attention.

  We traced recorded financial transactions to and from supporting documentation and
  assessed the reliability of computerized data by verifying the computer records to
  source documents. We also evaluated whether the internal control structure over
  financial reporting and safeguarding of assets was implemented and functioning as
  designed.

  We discussed our observations and conclusions with management officials on
  November 12, 2008, and included their comments where appropriate. Additionally, we
  provided individual reports to management at each judgmentally selected site.

  PRIOR AUDIT COVERAGE


                            Report               Final        Monetary
    Report Title           Number            Report Date       Impact              Report Results
Fiscal Year 2004         FF-AR-05-073        March 2, 2005       N/A     This report summarized various
Financial Installation                                                   internal control and compliance
Audit – Self-Service                                                     issues at 15 SSPCs related to
Postal Centers                                                           cash and stamp accountability,
                                                                         requests for vending machine
                                                                         reimbursements, and bait money
                                                                         orders. We recommended
                                                                         management reinforce guidelines
                                                                         to SSPC personnel for requests for
                                                                         refunds and procedures for
                                                                         carrying bait money orders.
Fiscal Year 2005         FF-AR-06-127         April 7, 2006     N/A      This report summarized various
Financial Installation                                                   internal control and compliance
Audit – Self-Service                                                     issues at five SSPCs related to
and Automated                                                            cash and stamp accountability,
Postal Centers                                                           security, vending refunds,
                                                                         automated postal center refunds,
                                                                         spoiled variable rate labels, and
                                                                         rejected stamp stock. Because of
                                                                         the limited number of units audited
                                                                         and because we made
                                                                         recommendations in the individual
                                                                         reports, we did not make additional
                                                                         recommendations in this report.




                                                        5
  Fiscal Year 2008 Financial Installation Audits –                                         FF-AR-09-034
   Self-Service Postal Centers

                 APPENDIX B: SELF-SERVICE POSTAL CENTERS AUDITED
                     AND REPORTS ISSUED NATIONWIDE IN FY 2008

                                                                                                              Non-
                                                                                             Monetary       Monetary
                Report Title, Number, and Date                              Revenue           Impact         Impact
xxxxxx xxxx xxxx xxxxxxxxx xxxxxxxxxxxx xxxxx – xxxxxxx xxxx
xxxx xxxxxx xxxx-xxxxxxx xxxxxx xxxxxx – xxxxxxx, xxxxxxx                      $330,108                 -              -
xxxxxxxxxxxxx, xxxx xx, xxxxx
xxxxxx xxxx xxxx xxxxxxxxx xxxxxxxxxxxx xxxxt – xxxxxx xxxx
xxxxxx – xxxx-xxxxxxx xxxxxx xxxxxx – xxxxxx, xxxxxxxx                          372,317                 -              -
xxxxxxxxxxxxx, xxxxx xx, xxxxx
xxxxxx xxxx xxxx xxxxxxxxx xxxxxxxxxxxx xxxxx – xxxxxxxxxx
xxxx-xxxxxxx xxxxxx xxxxxx – xxxxxxxxxx, xxxxxxxx                                 28,448                -              -
xxxxxxxxxxxxx, xxxxxx xx, xxxxx
xxxxxx xxxx xxxx xxxxxxxxx xxxx xxxxx – xxxxxxxxxx xxxxxx
xxxxx xxx xxxxxxx xxxxxxx xxxx-xxxxxxx xxxxxx xxxxxxx –                         239,000                 -     $12,852
xxxxxxx, xxxxxxx (xxxxxxxxxxxxxx, xxxxxxxx xx, xxxxx7
xxxxxx xxxx xxxx xxxxxxxxx xxxxxxxxxxxx xxxxx – xxxxxxxxxxx
xxxxxxx – xxxx-xxxxxxx xxxxxx xxxxxx – xxxxxx, xxxxx                            613,886          $1,293                -
xxxxxxxxxxxxx, xxxx xx, xxxxx
xxxxxx xxxx xxxx xxxxxxxxx xxxxxxxxxxxx xxxxx – xxxxxx xxxx-
xxxxxxx xxxxxx xxxxxx – xxxxxx, xxxxxxxxxx (xxxxxxxxxxxx,                       559,054                 -       19,695
xxxxx xx, xxxxx
xxxxxx xxxx xxxx xxxxxxxxx xxxxxxxxxxxx xxxxx – xxxxx x.
xxxxxx xxxxxxx xxxx-xxxxxxx xxxxxx xxxxxx – xxx xxxx, xxx xxxx                  517,343                 -        4,512
xxxxxxxxxxxxx, xxxx x, xxxxx
xxxxxx xxxx xxxx xxxxxxxxx xxxxxxxxxxxx xxxxx – xxxxxxxxxx
xxxx-xxxxxxx xxxxxx xxxxxx – xxxxxxxxxx, xxxxxxxx                               116,209                 -       22,231
xxxxxxxxxxxxx, xxxx xx, xxxxx
xxxxxx xxxx xxxx xxxxxxxxx xxxxxxxxxxxx xxxxx – xxxxx xxxx-
xxxxxxx xxxxxx xxxxxx – xxxxx, xxxx (xxxxxxxxxxxx, xxxxxxxxx                    870,854                 -              -
x, xxxx)
xxxxxx xxxx xxxx xxxxxxxxx xxxxxxxxxxxx xxxxx – xxxxxxxx
xxxx-xxxxxxx xxxxxx xxxxxx – xxxxxxxx, xxxxx (xxxxxxxxxxxx,                     259,091                 -              -
xxxx x, xxxx)
xxxxxx xxxx xxxx xxxxxxxxx xxxxxxxxxxxx xxxxx – xxxx xxxx
xxxxxx – xxxx-xxxxxxx xxxxxx xxxxxx – xxxx, xxxxxx                              492,243              952               -
(xxxxxxxxxxxx, xxxxxxxx x, xxxx)
xxxxxx xxxx xxxx xxxxxxxxx xxxxxxxxxxxx xxxxx – xxxxxxxxx
xxxxxxx xxxx-xxxxxxx xxxxxx xxxxxx – xxxxxxxxx, xxxxxxx                           98,568                -              -
(xxxxxxxxxxxx, xxxxx xx, xxxx)

Totals                                                                       $4,397,121          $2,245       $59,290




  7
   This report represents audits of the following two SSPCs: xxxxxxxxxx xxxxxx xxxxx xxx xxxxxxx xxxxxxx; therefore,
  13 SSPCs are included in this capping report.
                                                           6
Fiscal Year 2008 Financial Installation Audits –                                                      FF-AR-09-034
 Self-Service Postal Centers


               APPENDIX C: ACCOUNTABILITY EXAMINATION SUMMARY

This table presents the results of accountability examinations performed during the
audits, rounded to the nearest dollar. Shortages and overages presented are the total
value of all shortages and overages identified.


                                                                 Total Value of
                                                                 Accountability          Total Value of All
                                            Number of             (Per Clerk’s           (out of tolerance)
                                          Accountabilities          Balance
               Unit Name                    Examined                Report)          Shortages       Overages
    xxxxxxx xxxx xxxx xxxxxx xxxx                  8                     $89,316                 -          $87

    xxxxxx xxxx xxxxxx xxxx                        1                      94,450                 -        8,354

    xxxxxxxxxx xxxx                                1                      18,243                 -          299

    xxxxxxxxxx xxxxxx xxxxx xxxx                   1                      12,852                 -          986

    xxxxxxxxxxx xxxxxxx xxxx                       13                     53,339            $256               -

    xxxxxx xxxx                                    8                     105,035             828               -

    xxxxx x. xxxxxx xxxxxxx xxxx                   1                      84,284                 -          274

    xxxxxxxxxx xxxx                                1                     124,193           2,911               -

    xxxxxxx xxxxxxx xxxx                           1                      32,599             412               -

    xxxxx xxxx                                     08                            -               -             -

    xxxxxxxx xxxx                                  10                     52,952                 -             -

    xxxx xxxx xxxxxx xxxx                          14                    153,429             952               -

    xxxxxxxxx xxxxxxx xxxx                         1                      13,091               62              -

    Total:                                         60                  $833,783           $5,421       $10,000




8
  The xxxxx SSPC closed in April 2008 and the remaining stock was returned to the Stamp Distribution Office. As a
result, the audit team was unable to count the vending technician’s accountability during the audit in August 2008.




                                                         7
  Fiscal Year 2008 Financial Installation Audits –                                                                                                                                            FF-AR-09-034
   Self-Service Postal Centers



        APPENDIX D: DETAILED ANALYSIS OF INTERNAL CONTROL DEFICIENCIES REPORTED IN FY 2008
                                AND IN PREVIOUSLY ISSUED REPORTS




                                                                  xxxxxxx xxxxxxxxxx




                                                                                                         xxxxxxxxxx xxxxxx




                                                                                                                                                                                                                                                                xxxxxxxxx xxxxxxx
                                                                                                                                                                                                                                                                                                       No. of Units




                                                                                                                                                                                                                                             xxxx xxxxxxxxxxx
                                                xxxxxxxxxx xxxx




                                                                                       xxxxxxxxxx xxxx




                                                                                                                                                                            xxxxxxxxxx xxxx

                                                                                                                                                                                              xxxxxxx xxxxxxx
                                                                                                                                                                                                                                                                                                      Representing




                                                                                                                                                                                                                                                                                    Number of Units
                                                                                                                                                          xxxxx x. xxxxxx




                                                                                                                                                                                                                                                                                    with Findings10
                                                xxxxxxx xxxxx




                                                                                                                                                                                                                             xxxxxxxx xxxx
                                                                                                                                                                                                                                                                                                         Repeat




                                                                                                                                                          xxxxxxx xxxx
                                                                                                                             xxxxxxx xxxx
                                                                                                                             xxxxxxxxxxx


                                                                                                                                            xxxxxx xxxx
                                                                                                                                                                                                                                                                                                       Findings by




                                                                                                         xxxxx xxxx




                                                                                                                                                                                                                xxxxx xxxx
                                                                                                                                                                                                                                                                                                           FY11




                                                                  xxxx




                                                                                                                                                                                              xxxx




                                                                                                                                                                                                                                             xxxx

                                                                                                                                                                                                                                                                xxxx
Internal Control Deficiency9
Unit management did not:                                                                                                                                                                                                                                                                              2005    2004
                                                            Cash and Stamp Accountability
Conduct counts at the proper frequencies.                      x               x                                                                                                                                              x                   x                                     4              -       7
Properly maintain PS Forms 3977.                                               x          x                                                                                                                                   x                   x                                     4              2       9
Have a cash reserve authorization letter
from the Manager, District Finance, on                                                  x                                                                                    x                                                                    x                                     3              -       4
file.
Properly maintain PS Form 3368-P,
                                                                                                                                x                                                                                             x                   x                                     3              -        -
Stamp Credit Examination Record.
Properly transfer the vending
accountability to a replacement technician
                                                                       x                                                                                                                                                                          x                                     2              -       5
after the former technician transferred to
another department.
Properly store extra cash and stamp
                                                                                                                                                              x                                                                                   x                                     2              2       8
stock.
Properly secure cash collections while                                                  x
                                                                                                                                                                                                                                                  x                                     2              -       1
traveling between sites.




  9
    The control deficiencies highlighted in gray are those that represent repeat conditions that we considered significant in previously issued reports.
  10
     We discuss conditions occurring at four units or more in this capping report.
  11
     In FYs 2005 and 2004, we conducted audits at five and 15 units, respectively. We discussed conditions occurring at two units or more in our FY 2005
  capping report and on all conditions in our FY 2004 capping report.


                                                                                                                                    8
  Fiscal Year 2008 Financial Installation Audits –                                                                                                                                              FF-AR-09-034
   Self-Service Postal Centers




                                                                    xxxxxx xxxx xxxxxx




                                                                                                           xxxxxxxxxx xxxxxx




                                                                                                                                                                                                                                                                  xxxxxxxxx xxxxxxx
                                                                                                                                                                                                                                                                                                         No. of Units




                                                xxxxxxx xxxx xxxx




                                                                                                                                                                                                                                               xxxx xxxx xxxxxx
                                                                                         xxxxxxxxxx xxxx




                                                                                                                                                                              xxxxxxxxxx xxxx

                                                                                                                                                                                                xxxxxxx xxxxxxx
                                                                                                                                                                                                                                                                                                        Representing




                                                                                                                                                                                                                                                                                      Number of Units
                                                                                                                                                            xxxxx x. xxxxxx




                                                                                                                                                                                                                                                                                      with Findings13
                                                                                                                                                                                                                               xxxxxxxx xxxx
                                                                                                                                                                                                                                                                                                           Repeat




                                                                                                                                                            xxxxxxx xxxx
                                                                                                                               xxxxxxx xxxx
                                                                                                                               xxxxxxxxxxx
                                                xxxxxx xxxx




                                                                                                                                              xxxxxx xxxx
                                                                                                                                                                                                                                                                                                         Findings by




                                                                                                           xxxxx xxxx




                                                                                                                                                                                                                  xxxxx xxxx
                                                                                                                                                                                                                                                                                                             FY14




                                                                    xxxx




                                                                                                                                                                                                xxxx




                                                                                                                                                                                                                                               xxxx

                                                                                                                                                                                                                                                                  xxxx
Internal Control Deficiency12
Unit management did not:                                                                                                                                                                                                                                                                                2005    2004
Conduct annual key verifications of all
                                                                                                                                  x                                                                                                                 x                                     2              2       7
locks and keys at the unit.
Change the safe combination after the
former technicians relinquished the                                      x                                                                                                                                                                          x                                     2              -        -
accountability.
Maintain the vending credit separately
                                                                                                                                               x                x                                                                                                                         2              2        -
from other consigned credits.
Ensure technicians carried bait money
orders in the cash bags while servicing                                                   x                                                                                                                                                         x                                     2              -       8
the machines.
Ensure replacement technician serviced
vending machines in the presence of a
                                                                                                                                                                                                                                                                       x                  1              -        -
witness and used contingency stock and
funds.
Complete PS Forms 571, Discrepancy of
                                                                                                                                                                                                                                                    x                                     1              -       3
$100 or More in Financial Responsibility.
Compare and retain a copy of PS Form
17, Stamp Requisition/Stamp Return, for
                                                                                          x                                                                                                                                                                                               1              -        -
stamp stock returned to the Stamp
Distribution Office.




  12
     The control deficiencies highlighted in gray are those that represent repeat conditions that we considered significant in previously issued reports.
  13
     We discuss conditions occurring at four units or more in this capping report.
  14
     In FYs 2005 and 2004, we conducted audits at five and 15 units, respectively. We discussed conditions occurring at two units or more in our FY 2005
  capping report and on all conditions in our FY 2004 capping report.


                                                                                                                                      9
  Fiscal Year 2008 Financial Installation Audits –                                                                                                                                              FF-AR-09-034
   Self-Service Postal Centers




                                                                    xxxxxx xxxx xxxxxx




                                                                                                           xxxxxxxxxx xxxxxx




                                                                                                                                                                                                                                                                  xxxxxxxxx xxxxxxx
                                                                                                                                                                                                                                                                                                         No. of Units




                                                xxxxxxx xxxx xxxx




                                                                                                                                                                                                                                               xxxx xxxx xxxxxx
                                                                                         xxxxxxxxxx xxxx




                                                                                                                                                                              xxxxxxxxxx xxxx

                                                                                                                                                                                                xxxxxxx xxxxxxx
                                                                                                                                                                                                                                                                                                        Representing




                                                                                                                                                                                                                                                                                      Number of Units
                                                                                                                                                            xxxxx x. xxxxxx




                                                                                                                                                                                                                                                                                      with Findings16
                                                                                                                                                                                                                               xxxxxxxx xxxx
                                                                                                                                                                                                                                                                                                           Repeat




                                                                                                                                                            xxxxxxx xxxx
                                                                                                                               xxxxxxx xxxx
                                                                                                                               xxxxxxxxxxx
                                                xxxxxx xxxx




                                                                                                                                              xxxxxx xxxx
                                                                                                                                                                                                                                                                                                         Findings by




                                                                                                           xxxxx xxxx




                                                                                                                                                                                                                  xxxxx xxxx
                                                                                                                                                                                                                                                                                                             FY17




                                                                    xxxx




                                                                                                                                                                                                xxxx




                                                                                                                                                                                                                                               xxxx

                                                                                                                                                                                                                                                                  xxxx
Internal Control Deficiency15
Unit management did not:                                                                                                                                                                                                                                                                                2005    2004
                                                     Financial Accounting and Reporting
Research and resolve expense items
                                                                         x                x                                       x            x                                                    x                                               x                                     6              -        -
resulting from financial differences.
Properly maintain PS Forms 25 for each
                                                                                          x                                                                                    x                                                                    x                  x                  4              -       5
vending machine.
Maintain a detailed individual record to
monitor the discrepancies resulting from                                 x                                                        x                                                                                                                 x                                     3              -        -
financial differences.
Deposit vending machine cash collections
                                                                                          x                                                                                    x                                                                    x                                     3              -        -
into the bank at the proper frequency.
Properly complete PS Form 5445, Stamp
Vending Machine Reimbursement                                                                                                     x                                                                                                                 x                                     2              -        -
Request.
Properly clear or report employee items.                                                                                          x                                                                 x                                                                                     2              -        -
Use PS Form 5445 when completing a
                                                                                                                                                                                                                                                    x                                     1              2       2
reimbursement request.




  15
     The control deficiencies highlighted in gray are those that represent repeat conditions that we considered significant in previously issued reports.
  16
     We discuss conditions occurring at four units or more in this capping report.
  17
     In FYs 2005 and 2004, we conducted audits at five and 15 units, respectively. We discussed conditions occurring at two units or more in our FY 2005
  capping report and on all conditions in our FY 2004 capping report.


                                                                                                                                     10
Fiscal Year 2008 Financial Installation Audits –             FF-AR-09-034
 Self-Service Postal Centers



                         APPENDIX E: MANAGEMENT’S COMMENTS




                                                   11
